Pitt McGehee
Palmer & Rivers

Michael L. Pitt
Peggy Goldberg Pitt

Megan A. Bonanni
Jennifer L. Lord
Robin B. Wagner
Cary S. McGehee
Robert W. Palmer Charming Robinson-Holmes
Beth M. Rivers

Professional Corporation Attorneys & Counselors
117 West Fourth Street, Suite 200 Royal Oak, Michigan 48067-3848
Telephone 248-398-9800 Facsimile 248-268-7996 www.pittlawpc.com

Kevin M. Carlson
OF COUNSEL

Email: rpalmer@pittlawpc.com

January 22, 2021
VIA UPS OVERNIGHT MAIL
Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington DC 20543
RE:

Sgt. Gary Hedger, et al v Ronald Graves
Case No. 20-578

Dear Mr. Harris:
I am counsel for respondents in the above-reference case. On October 19, 2020 a certiorari
petition was docketed in this case. On January 8, 2021 I was notified that the Court requested a
response. Unless extended by the Court, the response is due on February 8, 2021. For the reasons that
follow, and pursuant to Rule 30.4, I respectfully request an extension of 30 days, to and including March
10, 2021.
I have several pressing obligations during these coming weeks, including in Carthens, Pamela
Williams, et al v FCA, with JAMS, Case No. 1345001386 and class action Beverly Zimmerman, et al v The
3M Company, et al USDC, Western District Case No. 17-1062. An extension will allow me to meet these
obligations and also to file a response that adequately addresses the points raised in the petition.
Although I am not currently a member of the Supreme Court bar, I recognize that the brief in
opposition must and will be filed by a member of the Bar.
For these reasons, I ask that a 30-day extension be granted. Thank you for your attention to this
matter.
Sincerely,

RECEIVED
OBERT W. PALMER
RWP/ktp
Marcelyn A. Stepanski (mstepanski@rsjalaw.com)
Cc:

JAN 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

